<html>
<title> - Imprisoned in Uzbekistan – Politically Motivated Cases</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


113th Congress 				    Printed for the use of the 
2d Session				    Commission on Security and Cooperation in Europe
____________________________________________________________________________________________          
.                                      
  

                              IMPRISONED IN UZBEKISTAN: 
                              POLITICALLY MOTIVATED CASES

                
                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                            OCTOBER 28, 2014


                            Briefing of the
            Commission on Security and Cooperation in Europe
_______________________________________________________________________________________________
                            Washington: 2015
                                     





            Commission on Security and Cooperation in Europe

                     234 Ford House Office Building

                          Washington, DC 20515

                              202-225-1901

                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="beddcddddbfed3dfd7d290d6d1cbcddb90d9d1c8">[email&#160;protected]</a>

                          http://www.csce.gov

                      Legislative Branch Commissioners




                 SENATE					HOUSE
    
                                                          
 BENJAMIN L. CARDIN, Maryland,			CHRISTOPHER SMITH, New Jersey,
  Chairman					 Co-Chairman
        
 SHELDON WHITEHOUSE, Rhode Island		JOSEPH PITTS, Pennsylvania

TOM UDALL, New Mexico				ROBERT ADERHOLT, Alabama

JEANNE SHAHEEN, New Hampshire			PHIL GINGREY, Georgia

RICHARD BLUMENTHAL, Connecticut			MICHAEL BURGESS, Texas

ROGER WICKER, Mississippi			ALCEE HASTINGS, Florida

SAXBY CHAMBLISS, Georgia			LOUISE McINTOSH SLAUGHTER,
						 New York
JOHN BOOZMAN, Arkansas				MIKE McINTYRE, North Carolina
						STEVE COHEN, Tennessee



					(ii)
					
					

                            
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

         IMPRISONED IN UZBEKISTAN: POLITICALLY MOTIVATED CASES

                                  ------------

                                October 28, 2014

                                   WITNESSES

                                                                   Page
Steve Swerdlow, Human Rights Watch Central Asia Researcher, Director, 
Bishkek Office.........................................................
                                                                      3
Sanjar Umarov, Former Political Prisoner...............................
                                                                      6
Aygul Bekjan, Daughter of Imprisoned Journalist Muhammad Bekjanov......
                                                                      9
Cathy Cosman, Senior Policy Analyst, United States Commission on 
International Religious Freedom........................................
                                                                      3

                                  PARTICIPANT

David Killion, Policy Advisor, Commission on Security and Cooperation 
in Europe..............................................................
                                                                      1

                                  (iv)


         IMPRISONED IN UZBEKISTAN: POLITICALLY MOTIVATED CASES

                              ------------

                            October 28, 2014

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held from 11:01 a.m. to 12:37 p.m. EST in 2200 
Rayburn House Office Building, Washington D.C., David Killion, Chief of 
Staff of the Commission for Security and Cooperation in Europe, 
presiding.
    Mr. Killion. Good morning, everyone. I'm David Killion. I'm chief 
of staff of the Helsinki Commission--the Commission for Security and 
Cooperation in Europe. I would like to welcome everyone here today to 
this briefing on, ``Imprisoned in Uzbekistan: Politically Motivated 
Cases.''
    When the former Soviet republics joined the OSCE in 1992, many of 
us hoped the demise of communism meant that the practice of jailing 
people for their beliefs would be merely a vestige of an unhappy past. 
Unfortunately, that has not been the case. Political prisoners and 
prisoners of conscience still exist in several of the countries that 
emerged from the USSR. Unfortunately, there are many individuals in 
jail in Uzbekistan who should not be. Uzbekistan has one of the highest 
numbers of persons imprisoned on politically-motivated charges. Human 
rights activists, journalists, and members of certain religious groups 
continue to fall victim to restrictive laws and policies that are 
allegedly aimed at ensuring stability in the country, but I believe may 
actually have the opposite effect.
    A recent State Department assessment of the human rights situation 
in Uzbekistan said the country, quote, ``remains an area of serious 
concern,'' including restricted political and religious freedom, lack 
of an independent media, forced adult and child labor, allegations of 
torture and poor prison conditions. Uzbekistan has been designated a 
country of particular concern for religious freedom since 2006. Very 
disturbingly, there are consistent reports of widespread abuse and 
torture in Uzbekistan's prisons more than a decade after the U.N. Human 
Rights Rapporteur on torture concluded that torture was systematic in 
the country's prisons and detention camps.
    Uzbekistan has no independent monitoring of places of detention. In 
April 2013, the International Committee of the Red Cross announced that 
it had taken the very difficult decision to terminate all visits to 
detainees in Uzbekistan, because it was unable to conduct such visits 
according to its standard working procedures, and as a result, these 
visits were pointless.
    This is all the more disturbing in light of cases such as the 
recent death in custody of Nilofar Rahim Janav who was in imprisoned in 
2011 after being coerced into confessing that she was conducting 
terrorist activity on behalf of her father and husband, both Muslim 
theologians who Uzbek authorities do not like.
    Rahim Janav died in prison a few weeks ago at the age of 37, and 
her family was pressured to bury the body quickly, without being able 
to conduct a postmortem, and without a proper investigation into the 
causes of her death.
    Let me introduce our panelists today. Steve Swerdlow is Central 
Asia researcher in Europe and Central Asia in the Europe and Central 
Asia Division of Human Rights Watch, focusing on Uzbekistan and 
Tajikistan. He is an attorney with over 10 years of scholarly and human 
rights experience on Russia, Ukraine, the Caucasus and Central Asia. 
His previous work includes the Union of Councils for Soviet Jews, in 
the north and south Caucasus, CARE International in Georgia, the 
European Center for Minority Issues and the International Organization 
for Migration. Mr. Swerdlow received his J.D. from the University of 
California Berkeley School of Law, and his MA in international affairs 
from Columbia University's School of International Public Affairs.
    Dr. Sanjar Umarov is a former political prisoner. Dr. Umarov is a 
physicist who worked for the government of Uzbekistan until 1991 when 
he moved to the private sector just before the fall of the Soviet Union 
and launched several successful enterprises. In 2005, Dr. Umarov 
announced his political ambitions and became the chairman of the 
Sunshine Coalition, a movement that promoted dialogue between Uzbek 
entrepreneurs and the Uzbek government. Shortly afterward, in 2005, he 
was arrested and given a sentence of 14 and one half years. He was 
amnestied on humanitarian grounds in November of 2009.
    Aygul Bekjan is the daughter of imprisoned journalist Muhammad 
Bekjanov. Mr. Bekjanov worked for the opposition Erk newspaper, but had 
to flee Uzbekistan for Ukraine when Uzbek authorities conducted 
sweeping arrests following a series of explosions in the Uzbek capital, 
Tashkent, which were blamed on the opposition. Mr. Bekjanov was 
abducted from his home in Ukraine by Uzbek security forces in 1999, 
when Aygul was just 18 years old, and Aygul has not seen her father 
since.
    Mr. Bekjanov's health has deteriorated in prison, where he has 
contracted tuberculosis and was not properly treated for health 
problems reportedly related to beatings and abuse. Mr. Bekjanov was due 
for release in 2012, but his sentence was extended for five years for 
allegedly breaking prison rules.
    Catherine Cosman is also with us today. She joined the staff of the 
U.S. Commission on Religious Freedom as its senior policy adviser for 
the OSCE region in late 2003. She previously served right here with us 
on the Helsinki Commission, working on issues relating to Soviet 
dissent, and has also worked at Human Rights Watch, where she wrote 
several studies on ethnic conflict in Central Asia and on human 
rights--also, in the National Endowment for Democracy, where she 
manages a Central Asian and Caucasus grant program, and RFE/RL, where 
she founded and edited ``Media Matters'' and (Un)Civil Societies. She 
received a BA in history from Grinnell College and MA and ABD in Slavic 
languages and literatures from Brown University.
    So first, I'm going to ask Steve Swerdlow to show his film and then 
speak, followed by Dr. Umarov, Ms. Bekjan and Ms. Cosman. Then, we will 
open the floor to all of your questions and comments, so please be 
thinking during the presentations about how you would like to engage 
our panelists, because we'd like to have a very interactive briefing 
here today.
    Steve.
    Mr. Swerdlow. The Uzbek government has imprisoned thousands of 
people on politically motivated charges, some corruption. Some were 
journalists and they wrote articles raising sensitive issues. Others, 
though, landed in prison simply for exercising their religious beliefs.
    Ms. Cosman. Uzbekistan simply rejects all criticism of its human 
rights record, denies it has any political prisoners or religious 
prisoners. It simply says it has criminals who have violated the law.
    Mr. Swerdlow. Uzbekistan has been led the last 25 years by Islam 
Karimov. It's an authoritarian president, and he formerly was the 
Communist Party boss of Uzbekistan while it was still a part of the 
Soviet Union. President Karimov wields all the power in that 
authoritarian system. Individuals in prison on politically motivated 
charges experience a wide range of very serious human rights 
violations. From the very start of their cases, their rights are 
abused. They're denied access to counsel in the very beginning, the 
most crucial phase of their arrest and interrogation. We documented 
they are then often subjected to torture or ill treatment before trial 
and after trial.
    Mr. Swerdlow. Muhammad Bekjanov is the world's longest imprisoned 
journalist. He's now been in prison for 15 years.
    In January 2012, just five days before he was set to be released, 
Muhammad Bekjanov had his sentence extended by Uzbek authorities for 
so-called violations of prison rules.
    There are numerous persons imprisoned on politically motivated 
charges in the country, no sign that Uzbekistan is moving towards 
democratic reform, a sense that there is impunity for human rights 
abuses.
    Ms. Cosman. Uzbekistan has been important to the U.S., especially 
vis-a-vis the ongoing war in Afghanistan. We did have use of a military 
base there, and then it's railroad system has been important in helping 
to supply our troops in Afghanistan, so this has resulted in softening 
the U.S. criticism of Uzbekistan's human rights record.
    Mr. Swerdlow. If Uzbekistan refuses to release these people from 
prison, the United States and the European Union should start openly 
discussing some policy consequences. That means considering some kind 
of targeted sanctions, visa denials, asset freezes and they can seek at 
the Human Rights Council some form of accountability. They can create a 
special rapporteur devoted to Uzbekistan's human rights situation.
    Mr. Swerdlow. Thank you all for coming. Thank you, Ambassador 
Killion. My name is Steve Swerdlow. I want to start by saying I'm so 
pleased and honored to be sharing the panel today with two very 
courageous representatives of Uzbekistan's civil society, Sanjar Umarov 
and Aygul Bekjan, and also, of course, great expert Catherine Cosman. 
We're here today, I think, to shine a light on a crisis of politically 
motivated imprisonment. We are aware that Uzbekistan has one of the 
most atrocious human rights records in the world today, but what we 
tried to do with this particular report was reinvigorate the 
discussion, remind the world and policymakers in particular about the 
abuses being suffered by political prisoners in Uzbekistan and try to--
through 34 current cases and 10 former political prisoner cases, try to 
draw some conclusions that would apply to the roughly 10,000 or more 
persons that are jailed in Uzbekistan today on politically motivated 
charges, whether it's related to religion or human rights work, 
journalism or witnessing the Andijan massacre of 2005. But there are a 
number of grounds on which people are serving politically motivated 
terms in Uzbekistan.
    I thought I might begin by explaining the title. We entitled it: 
``I will hold out until the very end.'' You've already heard two 
stories in the film. I think a third story helps bring together some of 
the main findings of the report. This is the story of a currently 
imprisoned human rights defender named Azam Farmonov. He's 34. He's the 
father of two children and was the chairperson of the Human Rights 
Society of Uzbekistan in Gulistan, and he spent his time representing 
the rights of farmers. He spent his time going to court to represent 
laypeople in various court cases. He was a public defender. He was 
arrested in 2006 in the aftermath of the Andijan massacre, when the 
government started imprisoning wide numbers of human rights activists 
and others.
    His trial is a good example of how political prisoners experience 
the criminal justice system. Authorities held him and another human 
rights activist, Alisher Karamatov, incommunicado in the beginning of 
their detention after April 29, 2006. They were immediately subjected 
to torture during interrogation. Officers of the SNB, Uzbekistan's 
notorious security service agency, placed sealed gas masks on their 
heads to simulate suffocation, and beat their legs and feet, pressuring 
them to confess. Farmonov told his lawyer that he was beaten on the 
head with plastic bottles filled with water and that SNB officers 
threatened to drive nails into his toes and to harm his loved ones. 
During a search of his home that day, police beat Farmonov's wife, 
Ozoda. He was not represented by independent counsel at his trial. He 
was sentenced to nine years in the Jaslyk prison colony, which has been 
known for many years to be a site of torture in Uzbekistan.
    At his trial, he said to his wife, after experiencing torture and 
really only being able to interact with her for a second: I'll hold out 
until the very end. That's where he is now, holding out until the very 
end, like so many of these prisoners. We documented 34 cases of 
political prisoners today, and I want to share with you some of the key 
findings, the key conclusions. I should say, of course, this list of 34 
people is not exhaustive. Again, we're talking about a number of 
thousands, perhaps 10,000, perhaps. Some groups, the independent Human 
Rights Defenders Initiative led by Surat Ikramov in Tashkent, estimates 
that there may be up to 13,000 current political prisoners in 
Uzbekistan, but it's very hard to verify this given how closed 
Uzbekistan has come. But on these 34 cases, we were able to conclude 
that at least 29 of them had made credible allegations of torture or 
ill treatment during pre-trial custody or now imprisoned following 
their conviction. At least 18 have been denied access to counsel. Eight 
have been held incommunicado for some period of time. One case that's 
notable is the case of human rights activist who witnessed and 
documented mass grave sites filled with bodies after the Andijan 
massacre in 2005. He fled to Kyrgyzstan and was kidnapped, held 
incommunicado for a year. At least six of the 34 have been imprisoned 
for 15 years or longer. I think that's another notable aspect of 
politically motivated imprisonment in Uzbekistan, is the terms, the 
length of prison sentences is simply astounding. Muhammad Bekjanov is 
the world's longest imprisoned journalist, imprisoned almost for 16 
years. There are others, like Samon Darkoniv, who was a member of 
Uzbekistan's first independent parliament, who's been in jail now for 
22 years. Murod Juraev, another notable political prisoner, who's had 
his prison sentence extended numerous times, imprisoned since 1994.
    At least nine of them are over 60 years old. This is significant 
why? Because the Uzbek government often speaks of the use of amnesties 
to release thousands of prisoners. There's been some discussion in 
recent years about reforms to the Uzbek criminal system and the use of 
amnesty as a humanitarian gesture. What we documented, though, is that 
persons imprisoned on politically motivated charges tend to be excluded 
from amnesties. If you're over 60 years of age, you should be slated to 
be immediately released. That also applies if you're a woman. Several 
of the prisoners in this report are women and have not been released. 
Eleven of them had their prison terms extended arbitrarily. When it 
comes to Uzbekistan, the country is so difficult to document and study, 
it is hard in a way to arrive at ``new,'' quote-unquote, information 
about abuses.
    But what this report I hope--I hope shows is that there's a 
pernicious, very specific practice--a very cruel practice of actually 
extending prison sentences once someone has been convicted on almost 
absurd, flimsy grounds, where prisoners are not informed--are not given 
meaningful opportunity or due process or notice of the violations they 
have committed in prison, which are then used as a basis to extend 
their sentence by six years, nine years, 10 years. These are called 
violations of prison rules. I'll talk a little bit more about what they 
are. That's a significant number--11 out of 34--14 if you include the 
former--the 10 former political prisoners whose cases we've documented.
    At least 15 of them are currently suffering critical health 
problems such as tuberculosis, hypertension, heart attacks, ulcers. 
Nine have alleged that they've been denied access to urgent medical 
care. Four--I mentioned the Jaslyk Prison--four have served or are 
serving in the Jaslyk Prison. This is a prison that the U.N. Human 
Rights Council and the U.N. Special Rapporteur on Torture has called to 
be closed as early as 2002, but remains open.
    Five were kidnapped from the territories of other countries, 
including Aygul's father in Ukraine, but also Kyrgyzstan and 
Kazakhstan. In at least one case, Akramil Dashav, who is--according to 
the Uzbek government was a mastermind or the ideological inspiration 
behind the Andijan uprising, although he was imprisoned for six years 
prior to that, has been unheard or unseen for over four years, which 
constitutes a disappearance under international law and is a very 
serious crime.
    Those are some of the highlights. Getting back for a moment to the 
arbitrary extension of prison sentences, I think this is a very 
important finding. The bases on which sentences can be extended: We 
found in the case of Moro Jariav, whose sentence has been extended four 
separate times now, it's ranging 20 years--one reason that he was 
imprisoned to an additional four years was that he was found to have 
had improperly peeled carrots in the prison kitchen. Some of the other 
reasons that we documented in this report for extending prisoner 
sentences are the failure to lift a heavy object, failing to properly 
place one's shoes in the corner, failing to properly sweep the cell, 
wearing a shirt and very absurd bases. This is a particularly cruel 
practice that we haven't been able to document in any other country in 
the world.
    Compounding these abuses is an absolute lack of monitoring. As 
Ambassador Killion said, the International Committee for the Red Cross 
which is able to monitor prison conditions in many countries of the 
world took the very rare step in April 2013 to announce publicly--which 
it does not often do--that it was unable to monitor prisons--places of 
detention and prisons. That was simply because Uzbek government 
officials were violating the confidentiality of those interviews, but 
also in some cases--one--a few we documented in this report, for 
example the case of journalist Suliman Abdul Rachmanov some of these 
prisoners were actually hidden from the ICRC, moved to other prisons as 
soon as officials learned that the ICRC was on the way to visit them, 
which is another extremely troubling sign.
    So the problems have grown worse. In the meantime, Uzbekistan has 
not allowed a single U.N. Special Rapporteur to visit the country since 
2002, which makes Uzbekistan somewhat of a record holder. Only Zimbabwe 
has denied more U.S. special procedures access to the country. So there 
are 11 outstanding requests over 12 years. At Human Rights Watch, we 
look across the world at the cooperation with U.N. mechanisms and we 
think that Uzbekistan's case deserves particular attention. We've asked 
and we are calling on the United States government, the European Union, 
to seriously consider the establishment of a special mechanism at the 
U.N. Human Rights Council that would be devoted to studying 
Uzbekistan's human rights situation, in particular also the conditions 
for political prisoners.
    One of the really disheartening and difficult aspects of this story 
is the West and how it has, in some sense, turned a blind eye to the 
abuses in Uzbekistan. As Cathy mentioned in the film, Uzbekistan plays 
an extremely important geostrategic role in the war on terrorism and in 
the war in Afghanistan, I should say. With the drawdown of troops 
though,--we hope that the United States government will find an 
opportunity to increase the public diplomacy, more frequently raise the 
cases and the names of political prisoners in Uzbekistan--both in 
Tashkent, but also during the ABCs, the Annual Bilateral Consultations 
that are coming up--and support efforts such as the one we're calling 
for at the U.N. Human Rights Council.
    One last point to make is that the Andijan anniversary--the 
anniversary of the Andijan massacre, one of Eurasia's most bloody 
massacres--is coming next May. That would be a logical moment for us to 
work towards to try to both see the release of all these 34 individuals 
and everyone on politically motivated charges, but to hold Uzbekistan 
accountable, both in the U.N. but also in bilateral negotiations, 
setting meaningful policy consequences if there's a lack of progress by 
that time. I think that would be a logical point at which to evaluate 
Uzbekistan's human rights situation. I'll end there. Thank you.
    Mr. Killion. Thank you, Steve. Dr. Umarov, the floor is yours.
    Mr. Umarov. First of all, I'm sorry for my bad English. Also, I may 
be a little bit long for me.
    Mr. Moderator, I'd like to begin by expressing my appreciation to 
the leadership of the Helsinki Commission for organizing this briefing. 
In fact, this is my second opportunity to discuss my case at the 
commission event. Senator Cardin and Congressman Smith have taken an 
active interest for many years in Central Asia, and I know I am only 
one of the many individuals who have been helped, and even rescued, by 
their involvement and passionate commitment to human rights.
    Today, I am filled with hope. This was not always the case. After 
being torn from my family, thrown into an open cell and exposed to the 
frigid Uzbekistan winter in my shirt sleeves; after being convicted for 
a crime I did not commit; after being kicked, beaten and tortured by 
guards and cellmates alike; after being gassed and choked and mentally 
tormented; indeed, after being denied nearly every human right that 
we're discussing here today I almost lost everything--my speaking 
voice, my sanity, my family, my life and, yes, my hope.
    Then suddenly one day, I was set free. Yes, that morning I woke up 
as a prisoner and that evening my granddaughter, whom I had not held or 
seen since she was an infant, was bouncing upon my knee. This is a true 
story of what happens when hope is mobilized through perseverance. But 
it is not my story. It is the story of the cotton workers--no, the 
cotton slaves of Uzbekistan.
    For the past 25 years, my beloved country was been under the rule 
of one man, Islam Karimov, the Communist Party leader under the former 
Soviet Union. Profits from growing cotton dominate Uzbekistan's economy 
and fuel corruption within the government. Farmers are compelled to 
grow cotton and sell it to the government for next to no money. Each 
year, Uzbekistan's government forces about 2 million people--including 
doctors, teachers and children--to pick the crop, and paying a minimum 
wage of less than a 7 cents per kilogram, while selling cotton for 
world price. This is happening today, right now.
    Before prison, I had a good life, an amazingly charmed life, 
especially compared to those working in Uzbekistan fields in the cotton 
sector. After the fall of the Soviet Union, I saw an opportunity in the 
need to assist in modernizing my country. I helped found Uzbekistan's 
leading communications company, developed venture capital projects in 
energy and transportation industries, and founded an international 
business school in Tashkent.
    I became a successful businessman in independent Uzbekistan, and I 
looked forward to finding new opportunities. Yet I could not turn a 
blind eye to what was happening in Uzbekistan's cotton fields. In 2003, 
I began dabbling in politics and I secretly helped to found the Free 
Peasant opposition party, an organization that was working to give 
farmers a voice and power over their own land.
    I went into politics, not for the sake of power or ambition but in 
order to establish justice and order in my homeland. A very important 
role in the development of my character and world outlook was played by 
my family. My father, Gyas Jakubovich Umarov, in his scientific 
research, always pursued truthfulness a principle I inherited. There 
are a lot of people like me among Uzbekistan's intelligentsia. The 
trouble is that they are scattered, and if they try to act on their 
convictions they are brutally suppressed.
    But after two long years nothing seems to change. I grow 
increasingly frustrated. That's when I knew I had to do something more. 
In early 2005, I decided to use my position and influence to form a new 
movement, the Sunshine Coalition, to promote dialogue with the regime, 
and openly pushed for socioeconomic and democratic reform.
    A few months later, in the eastern Uzbek city of Andijon, thousands 
of citizens took to the streets in a peaceful protest against poor 
living conditions and government corruption. So what did the government 
do? Troops opened fire, gunning down and killing hundreds of men, women 
and children as they tried to flee. It was a massacre. Not 
surprisingly, the government tried to cover up the enormous scale of 
the violence.
    But truth has a way of coming out, and although I understood it 
would be dangerous, I spoke out publicly about this massacre, 
criticizing Uzbekistan's government. Not long after this atrocity, I 
visited the United States seeking support for the Sunshine Coalition 
from Uzbek expatriates and U.S. officials. My wife and four of our five 
children had already moved here, in part because of what was happening 
back home.
    A couple of days after returning to Uzbekistan, I received a phone 
call from a fellow opposition party member, who informed me that 
authorities were raiding Sunshine Coalition headquarters. I rushed 
over, and when I arrived I heard a loud voice inside, but when I banged 
on the door no one would come out. I turned to leave and suddenly I was 
grabbed off the street in the broad daylight and stuffed into a car.
    Next thing I remember was waking up in a cell with blood on my 
jacket. My mind was fuzzy for days after. They must have drugged me. 
There I remained for four months before my trial even began, being 
interrogated continuously and often beaten on the head. At one point a 
car backed up to my cell window and pumped in exhaust. I dropped down 
on my belly, pressed my mouth against the narrow space between my cell 
door and the floor, gasping for air, desperately trying to stay alive.
    My trial was the next day, January 30, 2006, President Karimov's 
birthday. I was accused of creating an unsanctioned political 
organization, as well as a litany of other trumped-up charges. At that 
point I still had hope. I was a romantic. But then the judge ignored my 
lawyer and listened only to the prosecutor. It soon became clear that I 
wasn't going free. How I was supposed to endure another two, maybe even 
three years of this treatment? Then they read the sentence: fourteen-
and-a-half years, for what?
    I was sent to a prison colony and weekly placed in solitary 
confinement in a tiny cell with a concrete floor, an open toilet and no 
sink. I was kept there first for 17 days, then 15 days, but each time 
my stay was almost up--and, believe me, I counted every single day--
officials would extend it for another two or three weeks. This happened 
over and over, my hopes of returning to the general prison population 
constantly crushed. This went on for 14 months.
    It's very easy to go crazy in solitary. You dwell on things. You 
feel like you're losing your mind. I was not allowed any contact with 
my family. I could not even write to them. Any letter they wrote me 
were torn to pieces right in front of me by the prison guards. It was 
perhaps the worst torture I endured.
    During my first year in prison, my son took the train to see me 20 
times and 20 times was turned away. But the lowest point came in 
January 2008, when I was thrown in the ``monkey cage,'' that cell I 
mentioned at the start of my talk, that was open to the elements. The 
first time I was put in there, I nearly froze to death. The temperature 
was routinely below freezing, maybe about minus 10 degrees Celsius, and 
all I had were light pants and a shirt, no shoes, no socks, to hat.
    The second time they threw me in there because I refused to sign a 
bogus confession saying that the United States gave me $20 million to 
overthrow Uzbekistan's government. My cellmates nearly beat me to 
death. They were ordered to try and make me sign. They broke my thumb 
and choked me permanently--and choked me, permanently damaging my vocal 
cords. But I refused to sign. They jumped on my shackled ankles, 
scarring me forever, but I did not sign.
    It wasn't until three years into my imprisonment that I was finally 
allowed to see my wife, my daughters and my lawyer, but I barely 
recognized them. The torture had gotten to me and I had lost all hope 
that I would ever get out.
    One day while I was in the prison hospital because my health had 
drastically deteriorated, I was summoned to the administration 
building. I assumed they were going to lengthen my sentence or deny me 
amnesty. But then I walked into the room. A man I learned was a judge 
called me Sanjar-aka, a term of respect, and within minutes I was 
freed, just like that. I could not believe it. Just when all seemed 
lost, I was free and reunited with my family, who had been debriefed a 
few days earlier by the U.S. Embassy.
    How do I understand my arrest, conviction and torture? Uzbekistan 
political system refused to hear or even tolerate a sincere attempt at 
reform. I ended up a prisoner of conscience. I am not so naive to think 
that everything in the country is a result of a direct order by the 
president. However, the system he created allows corrupt officials to 
abuse their power in his name.
    As for my release, did the Uzbekistan's government suddenly see the 
error of its way? I wish it were so. No, I was freed because of the 
perseverance of others. What I didn't know while I was being subject to 
the worst kind of indignity was my wife and children had worked 
tirelessly for my release. They reached out to international human 
rights groups. They raised my case in U.S. Congress, including at the 
Helsinki Commission. They contacted the Organization for Security and 
Cooperation in Europe and the U.N. Human Rights Commission, the 
predecessor to the Human Rights Council.
    I was freed due to strong international pressure, including a 
robust public campaign by human rights organizations and the efforts of 
diplomats. But I am one of the lucky ones. For the most part, 
international pressure on Uzbekistan has been sorely lacking. There are 
thousands of political prisoners in the world and millions of people 
forced into hard labor. But that can and must be changed.
    That's why I continue pressing for reform in my native land even as 
I reside in freedom and security with my family near Memphis, 
Tennessee. In December there will be elections for Uzbekistan's 
parliament. Unfortunately, no party in parliament is independent of the 
ruling regime. In fact, no opposition parties are registered in 
Uzbekistan, which is why everyone, including the ruling regime, must 
understand that with power comes responsibility as well as the 
possibility for the well-being of its people in the near future.
    I sincerely hope that the newly elected parliament, along with the 
current administration, will ensure fair election for a new president, 
which will take place in March 2015. But any government that is unable 
or unwilling to hear healthy criticism sooner or later will be doomed.
    I would like to take this opportunity to call for immediate release 
of the 34 political prisoners listed in the excellent Human Rights 
Watch report, but that should only be the beginning. Many others are 
unjustly jailed in Uzbekistan--should be released. That will be a good 
and essential step toward national reconciliation.
    In conclusion, let me again thank the commission's leadership and 
dedicated staff for organizing this briefing and inviting me to speak 
here today. I look forward to answering any question you might have.
    Mr. Killion. Thank you, Dr. Umarov, for your courage and your very 
powerful testimony. Now we'll turn to Ms. Bekjan for her testimony.
    Ms. Bekjan. Hello, my name is Aygul Bekjan. As you've heard, I'm a 
daughter of Muhammad Bekjanov, a political prisoner in Uzbekistan. I 
apologize; I have a little congestion going on and that's why I'm 
sniffing a lot.
    My family and I, we've been on this journey for more than 15 years. 
We try to get my father out. But Sinjar Umarov called himself a lucky 
one. My father unfortunately is unlucky one. He became a political 
prisoner just because he exercised his basic human right, freedom of 
speech.
    He worked as a journalist. He wrote about topics such as child 
labor in cotton fields, use of chemicals on cotton fields with children 
and the women present, human rights abuses, Aral Sea catastrophe, all 
of these things that Uzbek government would prefer not to talk about. 
Of course he paid a great price for that.
    It's been 15 years since I saw him--more than 15 years. I have 
younger sisters. They were not as lucky as I am. I was 19 when he was 
arrested, or 18 when he was arrested, and actually was the lucky one to 
grow up with him and to know him. My younger sisters, they never had a 
chance.
    We all became U.S. citizens, and I tried to open a visa to 
Uzbekistan to visit him but I was never able to because I was denied a 
few times. My mother is the only one who is retaining Ukrainian 
citizenship and that's why she's able to go there and see him 
occasionally. There's a few details that he shared about his 
imprisonment.
    Right in the beginning, when they arrested him, he was held in the 
basements of Tashkent prison and he was beaten to half death. When he 
said that the only thing he was praying for was death. Imagine being 
tortured to the point where you can't remember your children's names 
for months. As he was recalling, he was laying in a pool of blood and 
pus with broken bones, with his teeth knocked out, and he tried to 
remember our names.
    Then after Tashkent Prison, or spending a few months in the 
basements, they transferred him to Jaslyk, which is a concentration 
camp you can call it, where you go through life corridors, which is 
when prison authorities stand with sticks and they beat you senselessly 
until you just can't get up anymore. He spent some time there as well.
    In 2012 we thought that we were finally going to see him because he 
was supposed to be released. My mother was in Uzbekistan and she was 
waiting for him to get out. We were just so excited, imaging how it's 
all going to happen, how we're going to see him after so many years. 
She spent three months in Tashkent and never even knew that there was 
another trial and they added five more years to his sentence. We 
learned that from U.S. Embassy later on, that he's been sentenced--even 
though she was going to the officials, making requests over and over 
only--she's been told to wait for a letter, for which we're still 
waiting. It's been two years.
    I just hope that there's something that can be done. We tried. We 
tried so many times, but maybe this time, this year is going to be the 
lucky one. We still have hopes and we still would like our family to be 
united, to be together, because my father is a great man. He was the 
one who spoiled us. If you wanted to ask something, you go to your dad, 
not your mom. He was a peaceful journalist. I know I have say 
``peaceful''because apparently not everybody, I guess, know about that, 
but for me it was obvious that he was a peaceful journalist and that's 
all he did. All he did was just write the truth, and for which he paid 
a great price. So I'm along with Steve an intervention should be done 
in Uzbekistan, because this is unacceptable. This is inhumane and 
completely wrong, and I think it's also very important for U.S.--for 
Uzbekistan to be a more Democratic country, because we have to deal 
with them still.
    So that would be it. Thank you.
    Mr. Killion. Thank you so very much, Ms. Bekjan for your very 
compelling testimony. Now we will, turn to our final witness, Cathy 
Cosman.
    Ms. Cosman. Helsinki Commission staff for organizing this important 
briefing, and of course--well, my words are not enough to pay tribute 
who have such direct personal experience with this topic. I'd like to 
take a slightly different approach, at least in part, to the topic, 
because I think it's important to understand a bit about how religious 
prisoners end up in prison.--I'll just give a brief overview of some of 
the Uzbek laws that result in religious prisoners, and then I'll end 
with a few of the human stories of some of the religious prisoners. 
Only very few.
    As we discussed, the government of Uzbekistan routinely denies that 
it has any political prisoners, but back in 2011, the respected Russian 
Human Rights Group Memorial declared that there are more political 
prisoners in Uzbekistan than in the right of the former Soviet Union 
combined. Current estimates of the total number of political prisoners 
in Uzbekistan range from 7,500 to 12,000. Religious prisoners comprise 
the overwhelming majority of political prisoners in Uzbekistan. Many 
were imprisoned because they reject state control over religious 
practice or because Uzbekistan's government claims they are associated 
with extremist groups.
    Most observers believe that the only crime of many of Uzbekistan's 
religious prisoners is the independent practice and intensive study of 
Islam. Uzbekistan's 1998 law on freedom of conscience and religious 
organizations criminalizes unregistered religious activities, bans the 
production of any religious materials not approved by the state, 
prohibits children from participating in religious activities, only 
allows clerics to wear religious clothing in public and bans private 
religious instruction.
    Members of unregistered religious groups--meaning that they have 
filed with the government for legal status--may be subject to massive 
fines and police raids, threats and use of violence as well as arrest 
and detention. I'd like to provide a brief look at the five criminal 
code provisions which may result in religious advocates being sent to 
prison. The criminal code distinguishes between improperly registered 
illegal groups and banned prohibited religious groups. Those who resume 
the activities of a religious or other group denied state registration 
may spend three years in jail. Those who repeatedly violate the severe 
state restrictions on religious literature or material face major fines 
or up to three years of so-called ``corrective labor.''
    Alleged members of groups deemed to be religious extremists, 
fundamentalists or separatists face up to 20 years in prison, while 
alleged organizers of illegal religious groups face up to five-year 
prison terms. The government of Uzbekistan bans certain religious 
Islamic political organizations it labels Wahhabi or jihadist, 
including Hizb ut-Tahrir, Akromiya, Tablighi Jamaat and Nour, none of 
which are on U.S. lists of terrorist groups. The government of 
Uzbekistan uses the term ``Wahhabi'' to refer to a wide range of Muslim 
groups, including political opponents, violent extremists, Uzbek 
citizens with foreign education, those who practice independent Islam 
and followers of three prominent Uzbek Imams such as Obidkhon Nazarov.
    Of course, Uzbekistan does face genuine security threats from 
groups using violence in the name of religion. But the government uses 
sweeping laws against religious adherents and others who pose no real 
security threats. By relying on such policies, along with a glaring 
lack of due process rights and the all-too-frequent use of torture, as 
we have tragically just heard, Uzbekistan may be aiding the growth of 
the violent radicalism it is trying to combat.
    I hope that this brief overview of the legal framework helps to 
explain why so many religious adherents are imprisoned in Uzbekistan. 
Now, I will turn to a very brief summary of the fate of a few who tried 
to flee Uzbekistan's religious repression, and of others who are 
religious prisoners there today.
    Obidkhon Qori Nazarov, a prominent Tashkent imam known for his 
defense of religious freedom, fled Uzbekistan to avoid arrest in 1998. 
Sweden granted him political asylum in 2006. However, in February 2012, 
he was shot in Sweden and went into a coma. The imam's followers are 
convinced that the Uzbekistan government is responsible for his 
attempted assassination.
    As was mentioned briefly before by Ambassador Killion, Nilofar 
Rahim Janav, 37, died on September 13th of this year in the women's 
labor camp near Tashkent. She had served almost three years of her 10-
year term. Her family says that she was imprisoned to punish her 
husband and father, who live outside Uzbekistan. They are Muslim 
theologians, of whom Uzbekistan does not approve.
    Her corpse was handed to her brother in Tashkent, and he was told 
to bury it without a postmortem exam. An Uzbek prison official did not 
respond when Forum 18 News Service asked if the prison authorities had 
even tried to save her life. Rahim Janav did not suffer from any 
chronic medical conditions before her arrest. Reportedly, however, in 
prison, she fell ill and was very frightened. She said she was often 
pressured to testify against her husband and father.
    She did also go on television and discuss--the government tried to 
present her as having been forced to convert to Shia Islam. On 
September 25th, her widower, Younus Barhanov, published an appeal to 
the United Nations Human Rights Council, calling for an international 
investigation into her death and for the prosecution of those involved 
in her death.
    Two Muslim sisters--Mehrinisso, Zulkhumor Hamdamova are held in the 
same women's prison where Rahim Janav died. Both sisters were arrested 
in Qarshi in 2009 for holding unauthorized religious meetings, even 
though Mehrinisso had taught Islam in an official madrassa in that 
city. In April 2010, the Hamdamova sisters and Shahlo Rakhmonova, a 
relative of the sisters, were sentenced to up to seven years in jail.
    The trial was conducted with many legal and due process violations. 
When a group of women parliamentarians from Uzbekistan visited 
Washington several years ago, I asked them about the Hamdamova case and 
why the sisters were imprisoned for teaching girls about Islam. They 
scoffed, and said that the women were arrested solely because they had 
broken the law of Uzbekistan.
    The relatives of the Hamdamova sisters are worried about their 
health, particularly that of Mehrinisso Hamdamova. Early this year, she 
was reported as needing urgent medical treatment, and an operation on 
an apparent myoma. Relatives feared for her life in prison conditions. 
In October, her relatives were allowed a three-day visit, as they had 
been previously allowed. They said their health seems to be a bit 
better now. Mehrinisso was not operated on but she was given some 
medicine. Her relatives recently petitioned Uzbekistan authorities to 
amnesty at least Mehrinisso Hamdamova so she could attend her 
children's wedding.
    Khayrullo Tursunov and his family escaped to Kazakhstan in 2009, 
fearing punishment for their peaceful practice of Islam in their 
hometown, also in Karshi. His wife and children were granted refugee 
status in a third country but Tursunov was arrested by the Kazakhstan 
authorities at Uzbekistan's request, and he was extradited back to 
Uzbekistan in March 2013, despite a U.N. Committee Against Torture 
appeal. He stood trial for alleged religious extremism and is currently 
serving a 16-year prison term. Now it seems that the Uzbek authorities 
have tried to infect him with tuberculosis by placing him in an 
infected cell. While prison officials have claimed to Forum 18 that 
Tursunov is now cured of TB, this alleged cure has taken place in a 
remarkably short period of time.
    I have described only a few of the hundreds of known human stories 
of the religious prisoners of Uzbekistan. I should end by noting that 
in 2006, the U.S. government has designated Uzbekistan as a country of 
particular concern--CPC--for its systematic egregious and ongoing 
violations of freedom of religion or belief. I just also note that 
since 2009, the U.S. government has placed an indefinite waiver on any 
punitive sanctions in connection with Uzbekistan's CPC status.
    Thank you very much, and I look forward to a Q&A session.
    Mr. Killion. Thanks to all the panelists for your presentations. 
They were extremely helpful, all of them. Before I turn it over to the 
audience--I hope we'll have a lot of questions today--let me just first 
ask Steve and Cathy to talk a little bit about the record of the United 
States government and the State Department in engaging Uzbekistan 
directly and through international mechanisms--international 
organizational mechanisms to confront the human rights problems we're 
discussing today in Uzbekistan.
    Steve, of course you had a picture of the map of the region with a 
bright green light blinking, indicating the supply routes during the 
war in Afghanistan. Obviously that is in transition now. Perhaps you 
could comment on the past, the present and what you--what you see in 
the future.
    Mr. Swerdlow. Sure. This event is timely because there's been a 
review of U.S. policy that's been underway for some months now in 
connection with the drawdown of troops from Afghanistan, and a sense 
that there's grasping for a new approach. A new policy has to be 
formed, something that is not as tied to the war in Afghanistan, 
because Uzbekistan has to be dealt with on its own terms, a country of 
30 million people, the question being, should 30 million Uzbeks feel 
that their interests are the priority of Washington, or is it the 
interests of one man and clique around him that continues to engage in 
such egregious abuses?
    I think that is a question that confronts Washington. It's a 
question that implicates the long-term interests of the United States. 
You cannot have a stable relationship with a dictatorship engaged in 
such atrocious abuses for so long. It's a recipe for disaster. I think 
with the NDN drawing down--of course it's still relevant--there has to 
be a harder bargain that's driven by Washington with Tashkent, and we 
think that that's possible.
    One anecdote which I think is telling is when I was in Tashkent, 
then-Secretary of State Clinton was on her way to Tashkent. She made a 
statement the day before she arrived that she--a public statement that 
she was going to raise imprisoned human rights activists. The next day 
I got to meet that human rights activist that was freed, one person 
freed. His name was Farkhad Mukhtarov. He's in our report.
    That's a small example, but it's worth noting. It's very important, 
to compare the period when relations were, according to many, at their 
worst between the U.S. and Uzbekistan, which was after the Andijan 
massacre up until about, let's say, 2007 when things started to warm. 
Andijan started to pick up. That is a period when Leahy amendment 
restrictions banned the provision of military assistance to Tashkent, 
which was of course maddening to the regime, symbolically important. It 
made Uzbekistan somewhat of a pariah.
    This is also the time that the EU had sanctions on Uzbekistan, one 
of the first countries it had imposed sanctions on as a collective 
body. But guess what? There were about 25 political prisoners released 
in this worst period of U.S.-Uzbekistan relations. There was more. 
There was the ICRC; there was Human Rights Watch on the ground; there 
were political prisoners being released at a faster pace. What's 
happened since the waiver of the Leahy amendment restrictions since 
2011 and the lifting of EU sanctions since 2009? A trickle of political 
prisoners have been released, one a year approximately.
    I want to recognize the great work that the State Department does 
on--especially on the political prisoner cases, raising them. Sanjar 
Umarov is a living testament to that success, as was Yusuf Juma and 
many others. I want to recognize that and really emphasize how much we 
deeply appreciate that. What we would like to see is more of a 
combination and perhaps more of a movement towards a recognition of the 
absolute, the fundamental lack of progress on this issue by the U.S. 
supporting, in a more public way, a U.S. Human Rights Council 
initiative.
    One other idea Cathy, you mentioned the CPC designation. What that 
does envision ultimately if there's no progress are sanctions. The 
trafficking designation that--the Trafficking in Persons Report--the 
Trafficking in Persons Report of the State Department has placed 
Uzbekistan as a so-called Tier 3, the worst of the worst countries in 
terms of its use of forced labor. That also, ultimately, if there's no 
progress, envisages sanctions.
    Our thinking on that is that there need to be some difficult, sober 
conversations, some of them held hopefully in a more public way, that 
signal to the Uzbek government, that people like the head of the SNB, 
people like the head of the Ministry of Internal Affairs, and other 
agencies that are engaged in very egregious systematic abuses could 
also be placed on lists of not traveling to the United States, having 
assets frozen, and certain signs that, in some ways symbolic, would, I 
think, really signal to Uzbekistan that things need to change and they 
need to change now.
    Mr. Killion. Cathy.
    Ms. Cosman. Well, I'll be brief. I agree with what Steve said. The 
CPC mechanism, it's significant that no sooner was the designation made 
than a few days later it was announced yet again all sanctions have 
been waived. I should also mention that all sanctions have been waived 
against Turkmenistan, which was this year, for the first time, named to 
CPC.
    Interests of the post-Afghanistan situation or I should say post-
U.S. and NATO involvement in Afghanistan, that situation is 
outweighing, by far, the long-term human rights concerns, including of 
course forced labor, which also exists in Turkmenistan, I should add, 
as a main concern of the U.S. government. Of course the U.S. government 
has to balance different kinds of interests, but I wish that we could 
be a little more forthcoming in a public way.
    Mr. Killion. Let's turn to the audience. Who would like to go 
first? Please. When folks ask questions, if you could identify yourself 
by giving us both your name and your affiliation, your organization. 
I'm sorry; and also if you could come up to the middle of the room to 
the microphone, we'd appreciate it.
    Questioner. Hi. I'm Joanna Kranak. I'm an intern at Representative 
Gwen Moore's office and I have a question. Ms. Cosman mentioned that in 
Uzbekistan there are more political prisoners just in that one country 
than the entire former Soviet Union combined. Is there some quality of 
Uzbekistan that makes it more unique in that area?
    Ms. Cosman. Well, that's one thing I tried to describe. That's one 
reason I structured my comments in the way that I did, was to describe 
the laws, meaning that the potential for being charged with a crime is 
very wide-ranging in Uzbekistan. Tragically, I have to say that many 
other post-Soviet countries seem to have been now taking the Uzbekistan 
religion law as a model. So, for example, Kazakhstan and Azerbaijan, 
which used to have fairly liberal religion laws, now have moved in 
the--very far in the direction of the Uzbek religion law, and hence the 
potential for religious prisoners has also increased and actually also 
happened.
    As far as Turkmenistan is concerned, the government policy of 
clamping down on any information about that country is so successful 
that it's very difficult to know what's going on in that country. Only 
the best-organized group, such as Jehovah's Witnesses, manage to get 
out information about what's actually happening inside their 
communities, and they're usually having a lot of problems. They're sort 
of an old adage in human rights circles that the less you know, the 
less information, it often is linked to the worst situation, not when 
there's the most information.
    Mr. Swerdlow. I might add just a little to say that, you know, 
Uzbekistan obviously is the largest of the populations in Central Asia, 
30 million people. I heard one statistic that every fifth family--or I 
heard even every third family has some connection, some member of their 
family serving in either the police, the military police, the army, the 
SNB. It's a very wide-ranging security apparatus.
    Uzbekistan really meets the definition of a police state. While you 
have authoritarianism in Kazakhstan and you have it emerging even more, 
certainly well-entrenched but emerging even in more scary fashion in 
Tajikistan now, Uzbekistan sort of in a way, as Cathy said, pioneered 
many of the tactics we're now seeing played out in Azerbaijan, other 
parts of the former Soviet Union. In addition to the religion laws, 
there were very significant waves of repression that added to the ranks 
over the years. So in 1992, right out the gate, Islam Karimov drove 
into exile and imprisoned hundreds of the secular opposition and drove 
them out of the country. Then by the end of the '90s, that's the 
beginning of the campaign against religion, which really picks up steam 
after 9/11, as Karimov was able to brand what he's doing in terms of 
the war on terrorism. Then you have the Andijan massacre. At least 300 
or so of the political prisoners related to the Andijan events were 
witnesses to the events.
    Then you have this long period of a deep freeze, which is so 
frustrating, of 10 years now of a sort of steady pattern of arrests, 
maybe we would say we've estimated 2(00) to 300 new cases a year of 
religious persecution, and new categories always being added; so those 
people that are associated with the Turkish Lyceum, called the Nursi 
readers; there's been an upswing in espionage allegations also, with 
the sort of spy mania that comes with a country closing in the way it 
does after Andijan. So, many different groups. We try to put, you know, 
them into different categories here in the report.
    Ms. Cosman. Sorry, I did want to also mention, since you asked 
about all of the former Soviet Union, we have to mention Russia. In 
Russia, the religion law is fairly liberal--I mean, fairly--but there 
is an extremism law which is very wide, and most of the religious 
groups that are suffering in Russia suffer from the extremism law, and 
not only religious groups, but that's used as a net to catch a large 
number of people. In Russia so far, for religious groups, it's mainly 
Jehovah's Witnesses and followers of Said Nursi, this Turkish 
theologian. But others are increasingly being caught up, including a 
Russian Orthodox who belongs to an alternative to the Moscow 
Patriarchate, and he runs a website. He's currently on trial for 
extremism.
    Mr. Killion. What's the history of the U.S. engagement of the issue 
of human rights violations in Uzbekistan at the Human Rights Council, 
and the record of other democracies in challenging Uzbekistan's human 
rights record at the council? Is there any history of resolutions being 
drafted and debated?
    Mr. Swerdlow. Well, you know, the Human Rights Council's a young 
institution, as Dr. Umarov mentioned. It's come out of the Human Rights 
Commission. So we view Uzbekistan in a way as a test case for the 
legitimacy of the council. As I said, Uzbekistan holds a record in the 
number of U.N. special procedures that it has denied access to the 
country. I should say the U.S. government issued a good statement in 
the September session of the U.N. Human Rights Council, which we 
appreciated, that mentioned the issue of political prisoners.
    But it's important to understand that I think Central Asia as a 
region has never really been addressed in the U.N. Human Rights 
Council. That's why we think it would be important--not just for 
Uzbekistan but also for Turkmenistan, Tajikistan, Kazakhstan, to a 
region that seems to be innovating, bequeathing a gift of new and 
different types of authoritarianism to the rest of the world--it would 
be important for that whole region to understand that it cannot escape 
scrutiny in Geneva and in New York, and it can be and should be an 
object of investigation.
    I should say that the North Korea inquiry that was established is a 
really good example because there you have a closed country, thousands 
of victims, and really no hope of that inquiry being able to visit 
North Korea, but yet we saw that the inquiry gave a real voice to 
thousands of victims and it has added momentum to the cause of 
improving human rights there. So we see that as an important lesson for 
Uzbekistan.
    Ms. Cosman. I wanted to add, not on U.N. but on OSCE. I welcome the 
fact that ODIHR has moved the freedom of religion portfolio back to 
human rights from the tolerance unit, where I think it belongs. I hope 
that the ODIHR will increasingly pay attention to the severe problems 
faced by religious communities in Central Asia and post-Soviet 
countries, because until now it has mainly been concerned with the 
problems of discrimination against Muslims in Western Europe. That's 
not to say that's not a valid issue, but I think as we've heard, by 
comparison--well, there simply is no comparison.
    Mr. Killion. Dr. Umarov.
    Mr. Umarov. I think what is discussed here in Helsinki Commission, 
very good if U.S. embassy in Tashkent would deliver this information to 
minister of foreign relations of Uzbekistan, because when they receive 
this through embassy, U.S. embassy, is different than they receive it 
just from the media, or this is something official. It's very good 
because State Department is also participating in this commission. I 
think it would be very good, our U.S. embassy in Tashkent to deliver 
all what is discussed here, because otherwise, Uzbek government may 
say, we don't know what's happening in D.C., you know? It's just excuse 
to them and maybe relate to it a little bit.
    Ms. Cosman. If I can add also just on Kyrgyzstan, since we haven't 
mention that in the Central Asian context, it's currently at a very 
important point because there's a very restrictive, to put it mildly, 
draft religion law currently under consideration, and December 1st is a 
key date for consideration of the next phase of that draft religion 
law. I think it would be very good if there could be official calls to 
hold another roundtable to discuss the draft religion law.
    I happened to be in Kyrgyzstan and took part in a roundtable 
discussion which was literally called--the draft was issued midnight 
the day before the roundtable, and it was purely by chance that I took 
part in the roundtable, as did several other international 
representatives. More to the point, local religious communities also 
just, you know, found out by chance. I think it would be very important 
not only to have an international legal expert there on the draft 
religion law, but also to call for the Kyrgyz government to organize 
around another roundtable on the law.
    Mr. Umarov. Also about religious prisoners, what was--when I was in 
the prison I contacted also to prisoners who, for example, in prison 
colony, was around maybe 300 religious prisoners. I spoke to some of 
them. Mainly it was Hizb-ut-Tahrir, under Hizb-ut-Tahrir. They called 
themselves brother. Because they know that I came from the United 
States. Well, my family lived United States. They asked many questions 
about United States. You know, they were very interested.
    When I told them what in United States you may see, in one 
kilometers, the church, they was happy. These Muslim prisoners who 
jailed as extremists was happy to know that in United States many 
church, because they think that United States is godless country 
because they do not travel abroad like, for example, like we.
    We're traveling and we know what is democracy, what is United 
States or European country. But the many people who are jailed in Uzbek 
prison as religious prisoner, they do not move. They do not traveling. 
They receive only information through official media in Uzbekistan or 
through propaganda. I mean, even religious propaganda.
    So I don't know. It was very surprising to me to see their reaction 
to this because, you know, in Uzbekistan four official parties, and all 
official parties has the name of democracy in the name, democratic 
party. All the four official parties is democratic party. In 
constitution you may find the word ``democracy,'' I don't know, maybe 
in each paragraph.
    They think, because they're jailed under democracy--democracy, 
yeah, because all party--ruling parties are democratic and the 
constitution is democratic, so they think this is a democracy. The 
regime in Uzbekistan is a democracy, they think, because they don't 
know what is a democracy meaning. We know, yeah. We're visiting, we're 
traveling abroad, but many people who are jailed for religion subject, 
they don't travel a lot. They don't see what is democracy is really. So 
they think this is democracy, regime in Uzbekistan.
    Mr. Killion. One last question from the audience? Please.
    Questioner. Thank you. Jeff Goldstein from the Open Society 
Foundations.
    Over the last several years, the U.S. government officials have 
told us that the top two human rights issues they raise in all of their 
meetings with Uzbek counterparts are forced labor and religious 
freedom. So in relation to that, two questions: Are those right 
priorities, in your view, because the issue of political prisoners, 
although it's related to religious freedom, is not on that list.
    Secondly, we have seen some movement, forward and backwards, on the 
issue of forced labor but none on the issue of religious freedom. Why 
do you think that is? Does it have more to do with the tactics the U.S. 
government is pursuing, or does it have more to do with the Uzbek 
government attitude towards these issues?
    Mr. Killion. Cathy, do you want to start?
    Ms. Cosman. Thanks, Jeff. I can always rely on you for an 
interesting question.
    I think the reason that there's no progress on religious freedom is 
precisely because, from the Uzbek perspective, or the, I should say, 
the Uzbek official perspective, they're mainly concerned with 
maintaining control and staying in power so they can continue their 
corrupt and other ways. I think they see religious groups as the 
greatest potential for mass mobilization and mass protest potentially 
as a countervailing political force inside the country, which might 
eventually result in the end to their power. That's why I think it's 
viewed as a greater political threat.
    Of course it's a very short-term view because, as I tried to show, 
I think their policies may result in radicalization because of the 
extreme cruelty with which people are treated who are just trying to 
practice rights that, you know, should be totally normal, and which are 
in most cases peaceful.
    Of course, forced labor is a very important issue. I have the 
impression that there's been a pretty effective international campaign 
on that front, perhaps more effective than on religious freedom, 
although I hate to admit that. But Steve, I think, has been more 
involved in this other issue.
    Mr. Swerdlow. I was remiss in not also recognizing the dedicated 
staff of the Helsinki Commission. I wanted to thank you in particular, 
Janice, for organizing this.
    You know, to back up for a second, when we talk about religious 
freedom, it's a big issue. One thing that strikes me when I often 
discuss this with different policymakers is that there are differing 
definitions of what is meant by progress on religious freedom and what 
this large concept can encompass.
    One of the things we tried to do in the report, which I hope will 
be helpful, is we tried to show how different categories of political 
prisoners overlap, and often they overlap with religion. It would be 
more precise to say that most of the religious prisoners are prisoners 
convicted on ill-defined, over-broad charges of threatening the 
constitution, which in many ways harkens back to the Soviet articles, 
criminal articles, of threatening the order, threatening--I can't 
remember the exact definition, but Cathy knows them well.
    So the word ``religion'' actually doesn't even appear. The word 
``extremism'' does, which is not defined. The word ``terrorism'' does, 
which is not defined. Came to the conclusion that those, quote, 
unquote, ``religious articles'' really are--that is the definition of 
politically motivated--a politically motivated charge, one that 
punishes free expression. That can be freedom of belief and practice of 
one's worship, but it can also be freedom of speech.
    At the core of that issue is the Uzbek's government's unwillingness 
to allow freedom of expression writ large. That's where we've seen no 
issue. That ties it--no progress. That ties back to Andijan and the 
response and the unwillingness to even investigate what happened that 
ties into the ongoing persecution and crackdown of human rights groups. 
It ties into the issue of the government's unwillingness to register 
even a single NGO since 2002. That's a long time to not make any 
progress. It ties to the issue of not a single newspaper being able to 
function independently of the government--RFERL, BBC, VOA all being 
shut down and kicked out of the country.
    These are things that really are part of the same issue, which is 
freedom of expression. And so I think the--I think the U.S. government 
needs to place more emphasis on that issue. And, you know, some of the 
political prisoners in this report, again, I want to say they 
illustrate the overlapping nature of this issue, that you can't deal 
with one without the other.
    Bekjanov, a journalist but accused of threatening the 
constitutional order, which puts him in the category of the religious 
prisoners. Hamdamova sisters, members of a human rights organization 
but charged on religious charges of teaching Islam. Also Hirello 
Hamidov, an enormously popular figure who discussed religion as a 
sports journalist. Is he a journalist or is he a religious prisoner? 
There is only going to be, I think, progress on this issue when we 
start speaking in more plain terms and direct terms about the freedom 
of expression.
    Finally, I would agree with Cathy. I think that what perhaps makes 
the cotton issue different is that there's been the combination of a 
public campaign with private diplomacy, which you don't see mobilized 
in the same way on the other issues. I think that says that pressure 
works. Pressure works. If we raise the names of these political 
prisoners as often as we can, in every context--in Geneva, in New York, 
in D.C., at the ABCs, everywhere--we will see progress. And we will 
see--it's got to come with a carrot and a stick together. But I think 
we will see movement on this issue.
    Mr. Killion. Thank you very much. Before we close, I certainly want 
to see if--give an opportunity to Ms. Bekjan to see if there's anything 
that you would like to say about U.S. policy. Your father is the 
journalist who may be the one who's been detained longest in the world. 
Press freedom is a major focus of our human rights and foreign policy 
today. Yet, people don't normally think about Uzbekistan when they 
think about freedom of the press and think about journalists working in 
dangerous conditions or those who have been imprisoned. What is--what 
is the solution? How do we end your pain after all these long, long 
years?
    Ms. Bekjan. I think Steve made a really good point in the beginning 
of his speech, that there should be some action from the U.S. 
government because I consider the U.S. government has the most power 
and they can do the most. There's one thing that I forgot to mention 
about my dad, that was the last visit with my mom.
    He jokingly suggested that he found a very decent guy for my 
younger sister, because he's, of course worried. He wants a better 
future for all of us. But he's a political prisoner who is in the same 
prison with him. Of course, my mom rolled her eyes and they had a laugh 
about it. But he said, unfortunately, in Uzbekistan, being a political 
prisoner is like a stamp of decency. That means you're a decent person, 
if you've been a political prisoner. So this is the sad state of 
Uzbekistan today.
    I am asking U.S. government, of course, intervene. State 
Department, I know, is working--or say that they are working on this 
case and many other cases. I also wanted to mention that Yusuf 
Razimaradov is another longest-held journalist along with my dad. My 
dad received an award--the freedom of press in 2014, which I received 
in Washington, D.C. this spring. I hope that would also somehow--will 
move things along. I really hope so.
    Also Yusuf Razimaradov, I really wish that he wasn't forgotten as 
well, because unfortunately his wife divorced him. She was not willing 
to wait for him for so many years. Now he's just I guess left out in a 
vacuum and nobody really talks about him anymore. That's quite sad, 
too. Thanks.
    Mr. Killion. Thank you very much. We'll give you the last word, Mr. 
Umarov.
    Mr. Umarov. I want just to mention what this year will be March 
next year will be a presidential election in Uzbekistan. Mr. Karimov is 
already 25 years in the power. I would like to ask if it's possible to 
State Department and Helsinki Commission make the statement what they 
will not tolerate the re-election of current president for next term, 
because in 2005 I asked the middle level State Department charged for 
Central Asia. We did not ask him for arms. We do not ask him for money. 
We only ask him for the statement of the State Department what they 
will not tolerate of re-election of Karimov.
    The constitution because under Uzbek constitution it's only two 
times he can be elected. Now he already in his third term. In this case 
I am sure he will be interested, motivated to release all the political 
prisoners before end of his term and end the tortures.
    Mr. Killion. Thank you very much. Thank you to all of our panelists 
for helping to draw Washington's attention, and hopefully the world's 
attention, to this ongoing human rights problem. I also want to thank 
Janice Helwig from the Helsinki Commission staff who's sitting up here 
with the panel, who organized this important briefing and is 
celebrating 20 years with the CSCE. Thank you very much, Janice.

                                   
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
